UNITED STATES OF AMERICA, Plaintiff - Appellee, v. ANDRE J. TWITTY, Defendant - Appellant.
UNITED STATES COURT OF APPEALS FOR THE TENTH CIRCUIT
2021 U.S. App. LEXIS 17762
No. 20-1083
June 15, 2021, Filed
Notice:
PLEASE REFER TO FEDERAL RULES OF APPELLATE PROCEDURE RULE 32.1 GOVERNING
THE CITATION TO UNPUBLISHED OPINIONS.
Editorial Information: Prior History
{2021 U.S. App. LEXIS 1}(D.C. No. 1:19-CR-00344-RBJ-1). (D. Colo.).United States v. Twitty, 839 Fed.
Appx. 255, 2020 U.S. App. LEXIS 40419, 2020 WL 7689700 (10th Cir., Dec. 28, 2020)
Disposition:
AFFIRMED.
Counsel

For UNITED STATES OF AMERICA, Plaintiff - Appellee: Karl L.
Schock, Office of the United States Attorney, District of Colorado, Denver, CO.
For ANDRE J. TWITTY, Defendant - Appellant: Randy Scott
Reisch, Reisch Law Firm, Denver, CO.
Judges: Before PHILLIPS, EBEL, and CARSON, Circuit Judges.
CASE SUMMARYDistrict court could interpret Colorado stalking statute to include mens rea
requirement, and once Assimilated Crimes Act assimilated Colorado statute and adopted its elements
and ranges for punishment, district court was free to interpret statute’s elements in same way it would
any federal statute.
OVERVIEW: HOLDINGS: [1]-Because the basis for defendant's motion for new trial, improper
assimilation of Colorado's stalking statute under the Assimilated Crimes Act (ACA), was
non-jurisdictional, existed pretrial, and the district court could have resolved the motion without a trial on
the merits, defendant had to make his motion pretrial, and because he failed to show good cause for not
doing so, the court was unable review his challenge: [2]-The district court did not err in interpreting the
Colorado stalking statute to require proof that defendant intended to instill fear in the threat’s recipient
because federal courts could interpret statutes to include a mens rea requirement, and once the ACA
assimilated the Colorado statute and adopted its elements and ranges for punishment, the district court
was free to interpret the statute’s elements in the same way it would any other federal statute.
\

OUTCOME: Judgment affirmed.
LexisNexis Headnotes

Military & Veterans Law > Military Offenses > General Article > Categories of Offenses >
Noncapital Crimes & Offenses
Military & Veterans Law > Military Justice > Jurisdiction > Assimilation

CIRHOT

1

©2021 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the
restrictions and terms and conditions of the Matthew Bender Master Agreement.

18558018
Print to PDF without this message by purchasing novaPDF (http://www.novapdf.com/)

State,statutes assimilated by the Assimilated Crimes Act (ACA) in effect become federal statutes. That
means if a defendant commits a crime on federal land or in a federal building, and that crime is not
already a federal offense, the ACA acts as a gap-filler allowing the government to apply state law on
federal property.
Governments > Legislation > Interpretation
Criminal Law & Procedure > Appeals > Standards of Review > De Novo Review
The appellate court reviews a timely objection to the assimilation of a statute de novo.

*

Military & Veterans Law > Military Offenses > General Article > Categories of Offenses >
Noncapital Crimes & Offenses
Criminal Law & Procedure > Jurisdiction & Venue > Jurisdiction
A challenge to an indictment is not jurisdictional. Even if a court mistakenly based jurisdiction on the
Assimilated Crimes Act, rather than a provision of federal law, that error does not compel reversal
because improper assimilation is analogous to a citation of the wrong statute in an indictment and does
not prejudice the defendant.
Criminal Law & Procedure > Criminal Offenses > Crimes Against Persons > Stalking > Elements
Criminal Law & Procedure > Scienter > Specific Intent
By its terms, Colorado’s stalking statute does not have a mens rea requirement.
Governments > Legislation > Interpretation
Criminal Law & Procedure > Appeals > Standards of Review > De Novo Review
The appellate court reviews the interpretation and constitutionality of a state statute de novo.
Governments > Legislation > Interpretation
Criminal Law & Procedure > Scienter
The United States Supreme Court generally interprets statutes to include mens rea requirements even
where, by their terms, the statutes do not contain one. Courts generally interpret criminal statutes to
include broadly applicable scienter requirements, even where the statute does not contain them.
Military & Veterans Law > Military Justice > Jurisdiction > Assimilation
The Assimilated Crimes Act (ACA) adopts state law so the government may punish a crime committed
on federal land in the way and to the extent that it would have been punishable if committed within the
surrounding jurisdiction. In adopting these state laws, the ACA adopts only the offenses’ elements and
ranges for punishment. Otherwise, federal courts may interpret an assimilated statute as it would any
other federal statute because the assimilated state law, in effect becomes a federal statute.
Governments > Legislation > Interpretation
Criminal Law & Procedure > Scienter
Federal courts can generally interpret a statute to include a mens rea requirement to save the
constitutionality of the statute if the statute, by its terms, does not have one.
Military & Veterans Law > Military Offenses > General Article > Categories of Offenses >

CIRHOT

2

© 2021 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the
restrictions and terms and conditions of the Matthew Bender Master Agreement.

18558018
Print to PDF without this message by purchasing novaPDF (http://www.novapdf.com/)

Noncapital Crimes & Offenses
Governments > Legislation > Interpretation
Under the Assimilated Crimes Act, a conflicting state statute cannot redefine or enlarge an offense
defined by Congress.
Criminal Law & Procedure > Appeals > Standards of Review > De Novo Review > Jury
Instructions
The appellate court reviews jury instructions de novo to determine whether, as a whole, they correctly
state the law. The appellate court reverses only if it has substantial doubt that the jury was fairly guided.
Criminal Law & Procedure > Criminal Offenses > Crimes Against Persons > Stalking > Elements
A true threat prosecution requires proof that a reasonable person would understand the communication
to be a threat. Under this standard, the question is whether those who hear or read the threat reasonably
consider that an actual threat has been made. The Colorado stalking statute captures this requirement by
defining stalking as when a person knowingly makes a credible threat to another person, and defining a
credible threat as a threat, physical action, or repeated conduct that would cause a reasonable person to
be in fear for the person's safety or the safety of his or her immediate family. Colo Rev Stat Ann 5
18-3-602.
'*
Constitutional Law > Bill of Rights > Fundamental Freedoms > Freedom of Speech > Advocacy of
Illegal Action
Constitutional Law > Bill of Rights > Fundamental Freedoms > Freedom of Speech > Scope of
Freedom
A listener's subjective reaction, without more, should not be dispositive of whether a statement is a true
threat. The proper inquiry is whether a reasonable person would understand the communication to be a
threat. Guesses about whether a particular reader or listener will react with fear to particular words is far
too unpredictable a metric for First Amendment protection. So although the subjective reaction of a
statement's target or foreseeable recipients will be an important clue as to whether the message is a true
threat, the government does not have to prove beyond a reasonable doubt that the recipient felt
threatened.
Criminal Law & Procedure > Sentencing > Mental Incapacity
Criminal Law & Procedure > Scienter
Federal criminal liability generally does not turn solely on the results of an act without considering a
defendant's mental state.
Evidence > Procedural Considerations > Weight & Sufficiency
Criminal Law & Procedure > Appeals > Standards of Review > De Novo Review > Sufficiency of
Evidence to Convict
Evidence > Inferences & Presumptions > Inferences
The appellate court reviews the sufficiency of the evidence de novo, viewing the evidence in the light
most favorable to the verdict and taking all reasonable inferences in support of the verdict.
Criminal Law & Procedure > Criminal Offenses > Crimes Against Persons > Stalking > Elements
The Colorado stalking statute requires a credible threat and then repeated forms of communication in

CIRHOT

3

© 2021 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the
restrictions and terms and conditions of the Matthew Bender Master Agreement.

18558018
Print to PDF without this message by purchasing novaPDF (http://www.novapdf.com/)

connection with that singular threat. Moreover, these communications can be with the person or indirectly
through others who have a continuing relationship with that person.
Constitutional Law > Bill of Rights > Fundamental Freedoms > Freedom of Speech > Scope o 1
Freedom
Criminal Law & Procedure > Criminal Offenses > Crimes Against Persons > Stalking > Elements
The Colorado stalking statute does not require subjective fear. A listener's subjective reaction, without
more, should not be dispositive of whether a statement is a true threat because whether a particular
reader or listener will react with fear to particular words is far too unpredictable a metric for First
Amendment protection. Instead, it defines a credible threat as one which would cause a reasonable
person to be in fear for the person's safety or the safety of his or her immediate family or of someone
with whom the person has or has had a continuing relationship. Colo. Rev. Stat. Ann. § 18-3-602(2)(b).
An indirect threat that would cause fear in a reasonable person and that a defendant intended to instill
fear in a specific victim is enough. § 18-3-602(b).
Opinion
Opinion by:

Joel M. Carson III
Opinion

ORDER AND JUDGMENT*
State statutes assimilated by the Assimilated Crimes Act ("ACA") in effect become federal statutes.
See United States v. Kiliz. 694 F.2d 628, 629 (9th Cir. 1982) (citing Johnson v. Yellow Cab Transit
Co.. 321 U.S. 383, 64 S. Ct. 622, 88 L. Ed. 814 (1944)). That means if a Defendant commits a crime
on federal land or in a federal building, and that crime is not already a federal offense, the ACA acts
as a gap-filler allowing the government to apply state law on federal property. See Lewis v. United
States. 523 U.S. 155, 159-66, 118 S. Ct. 1135, 140 L. Ed. 2d 271 (1998).
On the eve of his release from federal prison, Defendant Andre J. Twittv threatened a Bureau of
Prisons ("BOP") disciplinary officer. A jury convicted Defendant for violating Colorado’s stalking
statute as assimilated by the ACA. Defendant appeals, arguing that the ACA did not properly
assimilate Colorado's stalking statute and even if it did, the district court could not interpret the
Colorado statute in the same ways it would other federal statutes. Exercising jurisdiction under 28
U.S.C. § 1291, we affirm.
I.
While serving a{2021 U.S. App. LEXIS 2} sentence in federal prison for making threats, Defendant
threatened Shery Beicker-Gallegos. Before threatening Beicker-Gallegos, Defendant threatened the
prison's warden, writing in a cop-out that he would "deal with all upon release."1 In this cop-out
Defendant also referenced a former Colorado inmate who murdered the director of the Colorado
Department of Corrections shortly after release. In response, a staff member drafted an incident
report (also known as a "shot") charging Defendant with threatening another with bodily harm.
Beicker-Gallegos-a BOP disciplinary hearing officer-presided over Defendant's disciplinary hearing
on that charge. At the hearing, Defendant emphasized that upon his impending release he would
shoot as many people as possible and then commit suicide. Based on Defendant's tone and body

CIRHOT

4

©2021 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the
restrictions and terms and conditions of the Matthew Bender Master Agreement.

18558018
Print to PDF without this message by purchasing novaPDF (http://www.novapdf.com/)

language, Beicker-Gallegos became concerned Defendant rriight follow through on these threats,
given his impending release. So she drafted another incident report charging Defendant with making
even more threats of bodily injury.
At this point, Defendant's behavior became cyclical-he would make a threat, a staff member would
charge him, and then, angered by the charge, he would{2021 U.S. App. LEXIS 3} make another
threat. So after Beicker-Gallegos charged Defendant, he wrote a cop-out saying:
How do you stop a man with a suicide plan . .. you can't.... So write another shot! Then I will
send you some more and let's see who wins. .. . Dumb ass b**ch.He addressed this cop-out to
Beicker-Gallegos, referring to her by name and also as a "white DHO b**ch." He also made
several statements noting that he had access to guns and bombmaking materials.2 He included
a copy of the incident report in the cop-out, and on it he wrote "lets play! Like I said Motivation!"
He also attached ten photographs of guns and ammunition.
After a new hearing officer adjudicated Beicker-Gallegos's charge, Defendant sent a cop-out to that
hearing officer. On that cop-out, Defendant wrote "Google home address" next to Beicker-Gallegos's
name. He also wrote "all that matters now are my rifles and google! Now come outside and stop me!
, I dare you!"
Months later, BOP staff charged Defendant with making renewed threats to kill BOP staff and their
children. Beicker-Gallegos adjudicated the new charge and found Defendant guilty. In response,
Defendant sent another cop-out addressed to Beicker-Gallegos. He made statements expressing he
did not "give a f**k" about the reports and charges. Again, he threatened to exact revenge once
released and circled several BOP personnel's names writing "Google" next to them.
Defendant then sent yet another cop-out, referencing Beicker-Gallegos by name noting that he
planned to "encourage all real black men to kill all white racist police and,prison staff." Soon after,
BOP personnel charged Defendant again for threatening another with bodily harm related to another
incident. Beicker-Gallegos adjudicated that charge, again, finding Defendant guilty. Defendant
responded just as he had in the past-he{2021 U.S. App. LEXIS 5} sent a cop-out letter to
Beicker-Gallegos referencing his plan to exact revenge on white America and noting that these
charges just motivated him. Beicker-Gallegos received this cop-out and filed yet another charge
against Defendant for threatening another with bodily harm. In total, BOP personnel charged
Defendant five times for threatening another with bodily injury.
Having seen enough, the government obtained an indictment alleging Defendant violated Colorado's
stalking statute-C.R.S. § 18-3-602(1), (2) ("Colorado statute") as assimilated by the ACA. The
indictment named Beicker-Gallegos as the recipient of Defendant's threat. Defendant moved to
dismiss, arguing the Colorado statute was unconstitutional because the statute, by its terms, lacked a
mens rea requirement. But the government had included an intent requirement in the indictment.
And the district court determined that, under our jurisprudence, it should interpret the Colorado
statute as having a constitutionality sufficient mens rea requirement. The case proceeded to trial
where the district court, consistent with its ruling, instructed the jury that the government had to prove
"defendant intended the recipient of the threat to feet threatened."{2021 U.S. App. LEXIS 6) The jury
found Defendant guilty.
Defendant moved for a new trial six days after the jury verdict, arguing the district court lacked
jurisdiction because 18 U.S.C. § 2261A punished approximately the same conduct as the Colorado
statute. And so the ACA did not properly assimilate the Colorado statute. See Lewis. 523 U.S. at 165
(the ACA does "not apply where both state and federal statutes seek to punish approximately the
same wrongful behavior."). The district court denied his motion. About a month later, Defendant

CIRHOT

5

© 2021 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the
restrictions and terms and conditions of the Matthew Bender Master Agreement.

18558018
Print to PDF without this message by purchasing novaPDF (http://www.novapdf.com/)

moved to dismiss the indictment, arguing 18 U.S.C. § 115(a)(1)(B) also punished approximately the
same conduct as the Colorado statute. The district court denied Defendant's motion, finding it
untimely because Defendant's argument presented a non-iurisdictional challenge that he should
have raised pretrial. Following sentencing and entry of judgment, Defendant appealed his conviction.
Defendant makes four claims on appeal: (1) the ACA does not properly assimilate the Colorado
statute; (2) the district court erred in interpreting the Colorado statute as containing a mens rea
requirement; (3) the district court improperly instructed the jury; and (4) the government presented
insufficient evidence to support Defendant’s conviction. We{2021 U.S. App. LEXIS 7} address each
claim in turn, affirming the district court on every issue.
A.
We review a timely objection to the assimilation of a statute de novo. United States v. Rocha. 598
F.3d 1144, 1147 (10th Cir. 2010).
Defendant argues the district court erred in denying his motions about improper assimilation.3 First,
he argues he objected pretrial to the ACA's assimilation of the Colorado statute. He did not.4 So we
proceed to his second argument-that his failure to object pretrial does not matter because
assimilation presents a non-waivable jurisdictional issue.
As we see it two alternatives exist here: (1) the ACA properly assimilated the Colorado statute
because the Colorado statute does not punish approximately the same behavior as federal law; or
(2) the ACA did not properly assimilate the Colorado statute because both state and federal statutes
seek to punish approximately the same behavior. Under option one, the district court would have
jurisdiction under the ACA. Under option two, the district court would have jurisdiction under the
federal statutes-18 U.S.C. §§ 2261A or 115(a)(1)(B). Either way, the district court had jurisdiction
over Defendant's purported violations of federal law within the judicial district. So jurisdictionally,
whether the government charged{2021 U.S. App. LEXIS 8} the offense under the ACA or another
provision of federal law did not matter.
Moreover, in this context Defendant's challenge to assimilation resembles a challenge to an
indictment.5 And a challenge to an indictment is not jurisdictional. See Hall. 979 F.2d at 322-23
(concluding that even if a court mistakenly based jurisdiction on the ACA, rather than a provision of
federal law, that error did not compel reversal because improper assimilation was analogous to a
citation of the wrong statute in an indictment and did not prejudice the defendant).
The Supreme Court has not expressly analyzed whether assimilation presents a jurisdictional issue.
But in Lewis, a jury convicted the defendants of first-degree murder under Louisiana law as
assimilated through the ACA. 523 U.S. at 158-59. The Supreme Court found the ACA did not
properly assimilate the Louisiana statute and remanded the case for resentencing. Id. at 172-73. The
Court's silence on the jurisdictional argument demonstrated the non-iurisdictional nature of the
defendants' assimilation appeal. Key, 599 F.3d at 476-77 ('The nonjurisdictional character of any
assimilation error [was] reinforced, if not directly ruled on, by the Supreme Court's disposition in
Lewis, which merely reversed and remanded for resentencing{2021 U.S. App. LEXIS 9} after the
Court found an improper assimilation."). Thus, Defendant's challenge here did not present a
jurisdictional issue.
Because the basis for Defendant's motion-improper assimilation-is non-iurisdictional. existed
pretrial, and the district court could have resolved the motion without a trial on the merits, Defendant
had to make his motion pretrial. Fed. R. Crim. P. 12(b)(3)(B). So unless he can show good cause for

C1RHOT

6

© 2021 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the
restrictions and terms and conditions of the Matthew Bender Master Agreement.

18558018
Print to PDF without this message by purchasing novaPDF (http://www.novapdf.com/)

not doing so, Defendant's failure to make his motion pretrial leaves us unable review his challenge.
See Bowline. 917 F.3d at 1237. But Defendant does not show good cause for his failure to make this
argument pretrial. In fact, he does not even try. So we affirm the district court’s denial of Defendant’s
post-trial motions on this issue.
B.
By its terms, Colorado’s stalking statute does not have a mens rea requirement. So the district court
interpreted it as requiring intent. We first address whether federal courts can interpret statutes to
include a mens rea requirement. Concluding they can, we next address whether federal courts can
interpret a state statute assimilated by the ACA as requiring intent. We review the interpretation and
constitutionality of a state statute de novo. Camfield v. City of Okla. Citv. 248 F.3d 1214, 1221 (10th
Cir. 2001); Cent. Kan. Credit Union v. Mut. Guar. Com.. 102 F.3d 1097, 1104 (10th Cir. 1996).
The Supreme Court generally interprets{2021 U.S. App. LEXIS 10} statutes to include mens rea
requirements even where, by their terms, the statutes do not contain one. Elonis v. United States.
575 U.S. 723, 734, 135 S. Ct. 2001, 192 L. Ed. 2d 1 (2015) (Courts generally interpret (] criminal
statutes to include broadly applicable scienter requirements, even where the statute . .. does not
contain them." (alteration in original) (internal citation and quotation marks omitted)). And we do the
same. United States v. Heineman. 767 F.3d 970, 978-82 (10th Cir. 2014) (interpreting 18 U.S.C. §
875(c), which criminalized the sending of an interstate threat but did not specify a mens rea
requirement, to require that the defendant subjectively intended the recipient feel threatened.).
Because federal courts can generally interpret statutes to include mens rea requirements, we next
address whether they can interpret an assimilated state statute to include a subjective intent
requirement.
The district court believed it could and, relying on Elonis. interpreted Colorado's stalking statute as
including a mens rea requirement-an intent to instill fear in the threat's recipient. Defendant attempts
to distinguish Elonis and Heineman from this case arguing that Elonis and Heineman involved
violations of a federal statute while this case involves violation of a state statute. And, he argues,
Colorado's interpretation of the statking{2021 U.S. App. LEXIS 11} statute prevents the district court
from including a subjective intent requirement here because a state's interpretation of its own
statutes binds federal courts.6 See Brown v. Buhman. 822 F.3d 1151, 1161 n.6 (10th Cir. 2016). But
in making that argument, Defendant does not account for the effect of the ACA.
The ACA adopts state law so the government may punish a crime committed on federal land "in the
way and to the extent that it would have been punishable if committed within the surrounding
jurisdiction." United States v. Sain. 795 F.2d 888, 890 (10th Cir. 1986). In adopting these state laws,
the ACA adopts only the offenses' elements and ranges for punishment, id Otherwise, federal courts
may interpret an assimilated statute as it would any other federal statute "because the assimilated
state law, in effect becomes a federal statute."7 Kjljz, 694 F.2d at 629 (citing Johnson. 321 U.S
383).
As explained above, federal courts can generally "interpret" a statute to include a mens rea
requirement to save the constitutionality of the statute if the statute, by its terms, does not have
one.8 The ACA assimilated the Colorado statute and thus adopted its elements and ranges for
punishment. Once assimilated, the district court was free to interpret the Colorado statute's elements
in the same way it would{2021 U.S. App. LEXIS 12} any other federal statute. And it did just that.
For these reasons, the district court did not err in interpreting the Colorado statute to require proof
that Defendant intended to instill fear in the threat's recipient.
C.

CIRHOT

7

©2021 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the
restrictions and terms and conditions of the Matthew Bender Master Agreement.

18558018
Print to PDF without this message by purchasing novaPDF (http://www.novapdf.com/)

The district court instructed the jury as follows:
To find the defendant committed the offense of Stalking (Credible Threat and Repeated
Communication), you must be convinced that the government has proved each of the following
elements beyond a reasonable doubt.
1. The defendant knowingly made a credible threat to another person, either directly, or indirectly
through a third person;
2. In connection with the threat, the defendant repeatedly made any form of communication with
that person, a member of that person's immediate family, or someone with whom that person
was having or previously had a continuing relationship, regardless of whether a conversation
ensued;
3. Based on the threats, physical action, or repeated conduct, a reasonable person would be in
fear for the person's safety or the safety of his/her immediate family or of someone with whom
the person has or has had a continuing relationship; and
4. The defendant intended the recipient of the threat to{2021 U.S. App. LEXIS 13} feel
threatened, (as defined in Instruction No. 12).
Defendant objects to the district court's inclusion of the third element-the objective reasonableness
standard.9 We review jury instructions de novo to determine whether, as a whole, they correctly state
the law. United States v. Gorrell. 922 F.3d 1117, 1121-22 (10th Cir. 2019). We reverse only if we
have "substantial doubt that the jury was fairly guided." Jd at 1122 (quoting United States v. Little,
829 F.3d 1177, 1181 (10th Cir. 2016)).
We have held that a "true threat" prosecution requires "proof that a reasonable person would
understand the communication to be a threat." United States v. Stevens. 881 F.3d 1249, 1253 (10th
Cir. 2018). Under this standard, "[tjhe question is whether those who hear or read the threat
reasonably consider that an actual threat has been made." id (alteration in original) (quoting United
States v. Dillard. 795 F.3d 1191, 1199 (10th Cir. 2015)). The Colorado statute captures this
requirement by defining stalking as when a person knowingly "[mjakes a credible threat to another
person.. .and defining a "credible threat" as "a threat, physical action, or repeated conduct that
would cause a reasonable person to be in fear for the person's safety or the safety of his or her
immediate fami!y."10 C.R.S.A. § 18-3-602 (emphasis added). So the district court's reasonable
person instruction aligned with the Colorado statute's language.
Defendant remains unsatisfied. He argues{2021 U.S. App. LEXIS 14} that Elonis did away with the
reasonable person standard in a way which prohibited the instruction here. We disagree. In Elonis.
the Supreme Court disavowed use of a reasonable person standard when looking at a defendant's
state of mind, not a victim's. 575 U.S. at 740. The Elonis district court instructed the jury that the
defendant could be found guilty if "a reasonable person would foresee that the statement would be
interpreted" as a threat. Id at 731. The Supreme Court held the district court erred because "(fjederal
criminal liability generally does not turn solely 6n the results of an act without considering [a]
defendant's mental state." ]d at 740. As explained above, Elonis imposed an intent element in place
of the lesser reasonable person standard.
Defendant plucks a quote from Elonis which reads, J,[h]aving liability turn on whether a reasonable
person regards the communication as a threat-regardless of what the defendant thinks-reduces
culpability on the all-important element of the crime to negligence . . . and we have long been
reluctant to infer that a negligence standard was intended in criminal statutes." ]d at 738 (internal
citations and quotation marks omitted). But this quote, despite Defendant's contention{2021 U.S.

CIRHOT

8

©2021 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the
restrictions and terms and conditions of the Matthew Bender Master Agreement.

18558018
Print to PDF without this message by purchasing novaPDF (http://www.novapdf.com/)

App. LEXIS 15} otherwise, does not help him. The district court did not use the reasonable person
standard to define Defendant's intent. So Defendant's reliance on cases disavowing such a use is
misplaced. The district court properly instructed the jury in accordance with the Colorado statute's
language and federal law, and thus did not err.
D.
Defendant argues the government produced insufficient evidence to sustain a conviction under the
Colorado statute because it only proved Beicker-Gallegos received one of Defendant’s threats. We
review the sufficiency of the evidence de novo, viewing the evidence in the light most favorable to
the verdict and taking all reasonable inferences in support of the verdict. United States v Wrinht
506 F.3d 1293, 1297 (10th Cir. 2007).
-------------------- ------At trial, Beicker-Gallegos testified she recalled receiving only one of Defendant's threats-the last one,
c.
which motivated her charging Defendant with threatening bodily injury. Beicker-Gallegos could not
recall whether she had seen Defendant's four other threats. Defendant argues that under the
Colorado statute the government had to prove Beicker-Gallegos contemporaneously received
repeated threats. Defendant is wrong. The Colorado statute specifies that:
[a] person commits stalking if directly,{2021 U.S. App. LEXIS 16} or indirectly through another
person, the person knowingly ... (b) [mjakes a credible threat to another person and, in
connection with the threat, repeatedly makes any form of communication with that person, a
member of that person s immediate family, or someone with whom that person has or has had a
continuing relationship, regardless of whether a conversation ensues .. .C.R.S.A. §
18-3-602(1 )(b). The Colorado statute requires a credible threat and then repeated forms of
communication in connection with that singular threat. Moreover, these communications can be
with the person or indirectly through others who have a continuing relationship with that person.
Defendant acknowledges that Beicker-Gallegos received at least one of his threats. Defendant
addressed his additional written threats to Beicker-Gallegos, and people with whom
Beicker-Gallegos had a continuing work relationship intercepted the threats. Even still, viewing
the evidence in the light most favorable to the verdict, the evidence shows that prison personnel
drew Beicker-Gallegos’s attention to at least one other threat they intercepted. Defendant also
made oral threatening communications at disciplinary hearings where Beicker-Gallegos
presided.{2021 U.S. App. LEXIS 17} These comments inspired her to file charges for
threatening bodily injury. 11 All this serves as ample evidence Defendant made a credible threat
and repeated communications in connection with that threat.
Defendant also argues the government had to prove that Beicker-Gallegos felt subjectively
threatened. But this argument misses the mark. The Colorado statute does not require subjective
fear- See People In Interest of R.D.. 464 P.3d at 733 ("[A] listener's subjective reaction, without
more, should not be dispositive of whether a statement is a true threat.. . [because] whether a
particular reader or listener will react with fear to particular words is far too unpredictable a metric for
First Amendment protection "). Instead, it defines a credible threat as one which would cause "a
reasonable person to be in fear for the person's safety or the safety of his or her immediate family or
of someone with whom the person has or has had a continuing relationship." C.R.S.A. §
18-3-602(2)(b) (emphasis added). An indirect threat that would cause fear in a reasonable person
and that a defendant intended to instill fear in a specific victim is enough. See C.R.S.A. §
18-3-602(b). Defendant addressed multiple threats to Beicker-Gallegos. This evidence shows he
intended that she feel threatened. The government{2021 U.S. App. LEXIS 18} also offered evidence
of Defendant's threats to rape and kill white women, his reference to Beicker-Gallegos as a "white
DHO b**ch," and his notation that he needed to google her home address. Viewing the evidence in

CIRHOT

9

© 2021 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the
restrictions and terms and conditions of the Matthew Bender Master Agreement.

18558018
Print to PDF without this message by purchasing novaPDF (http://www.novapdf.com/)

the light most favorable to the verdict, these explicit and vulgar threats addressed to
Beicker-Gallegos would cause fear in a reasonable person. For these reasons, the government
offered sufficient evidence for the jury to convict.
AFFIRMED.
Entered for the Court
Joel M. Carson III
Circuit Judge
Footnotes

This order and judgment is not binding precedent, except under the doctrines of law of the case, res
judicata, and collateral estoppel. It may be cited, however, for its persuasive value consistent with
Fed. R. App. P. 32.1 and 10th Cir. R. 32.1.
1
A cop-out is "a means by which inmates may send informal communications through internal prison
channels to BOP staff."
‘
2
We see no need to memorialize every vulgar comment Defendant made on his plans to rape and
kill. But for the sake of context, some of Defendant's comments included the following:
Let's se6i writing these bull***t shots. Are going to stop me from going down to the river! Taking
a shovel, digging up those 3 stainless steel boxes that I buried in 1998! The ones the bullshit FBI
still cannot find. Really! Did writing shots in 1997 stop me from leaving the bullshit BOP and
gathering up bombmaking material. F**k no!
Will writing shots stop me from going to Chicago and get a AK-47 pistol? This is my 5th time
leaving the bull***t BOP. I didn't give a f**k the first four times.
Come on! Tell me what the f**k are these shots supposed to do, except MOTIVATE ME.{2021 U.S.
App. LEXIS 4}
3
Defendant argues the ACA did not assimilate the Colorado statute because two federal statutes
punish approximately the same behavior as the Colorado statute-18 U.S.C. §§ 2261A and 115-. We
need not address whether such an overlap exists, because Defendant failed to timely object below or
show good cause for the delay.
4
True, Defendant did mention the scope of ACA assimilation in his reply to the government's
response to his own pretrial motion to dismiss. But in that reply, Defendant argued the ACA did not
assimilate the Colorado statute because the Colorado statute conflicted with federal policy.
Defendant neglected to mention either § 2261 (A) or § 115. After the trial, Defendant's position
evolved-he argued the Colorado statute and federal law are too similar. He filed a motion for new
trial six days after the verdict, arguing that the ACA did not assimilate the Colorado statute because
§ 2261(A) was sufficient to punish his conduct. Later, he argued that § 115(a)(1)(B) also punished
approximately the same conduct as the Colorado statute. Because Defendant made a different

C1RHOT

10

© 2021 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the
restrictions and terms and conditions of the Matthew Bender Master Agreement.

18558018
Print to PDF without this message by purchasing novaPDF (http://www.novapdf.com/)

argument and failed to reference § 2261(A) or § 115 before trial, we find he first objected to ACA's
assimilation of the Colorado statute post-trial.
5
United States v. Key. 599 F.3d 469, 476-77 (5th Cir. 2010); United States v. Todd. 139 F.3d 896,
1998 WL 112562, at *3 (4th Cir. 1998) (unpublished table decision); United States v. Hall. 979 F.2d
320, 322-23 (3rd. Cir. 1992); Hockenberrv v. United States. 422 F.2d 171, 173-74 (9th Cir. 1970).
Even if Defendant were correct and we had to defer to Colorado’s interpretation of the Colorado
statute, Defendant has not persuaded us that the Colorado state courts, post-Heineman and Elonis.
would have done things any differently. See People In Interest of RD. 464 P.3d 717, 733-34, 2020
CO 44 (Colo. 2020) (en banc) (avoiding a Constitutional challenge to the Colorado harassing ’
communication statute by interpreting the statute to include a subjective intent element-that the
defendant subjectively intended to threaten). See also People v. Smith 620 P.2d 232, 238 (Colo.
1980) (en banc) ("It is also true that a statute will be presumed to conform to constitutional
requirements . . . and a culpable mental state will be implied from a particular statute which does not
contain an intent element on its face.").
7
Defendant cites a series of cases which addressed the scope of the ACA. See United States v.
Johnson 967 F.2d 1431, 1434 (10th Cir. 1992). But these cases are inapplicable here because they
address when a defendant's act or omission is punishable by state law and Congressional
enactment. See id.; Lewis. 523 U.S. at 164. When overlap does occur, the courts should consider,
among other things, whether the "state law would effectively rewrite an offense definition that
Congress carefully considered." Lewis. 523 U.S. at 164. For reasons described above, Defendant
waived his argument that state law and congressional enactment punished approximately the same
conduct. So for purposes of this argument, we assume the ACA assimilated the Colorado statute.
For that reason, these cases are inapplicable and unpersuasive.
8
Defendant argues the district court redefined the Colorado statute by interpreting it to include a mens
rea requirement. And he argues that Williams v. United States. 327 U.S. 711, 66 S. Ct. 778, 90 L.
Ed. 962 (1946), prohibits the court from redefining or enlarging state statutes under the ACA. Not so.
Williams stands for the proposition that, under the ACA, a conflicting state statute cannot redefine or
enlarge an offense defined by Congress. kL at 718. It in no way limits the court's power to interpret
state statutes properly assimilated. Even still, the district court neither redefined nor enlarged the
Colorado statute by interpreting it to include a mens rea requirement because that interpretation did
not alter the statute's enumerated elements.
9
The first two elements are nearly verbatim the Pattern Criminal Jury instruction drafted by the
Colorado Supreme Court, See COLJI-Crim. 3:602 (2019), and, for reasons explained above, the
district court permissibly read in element four when interpreting the Colorado statute
10
The Colorado statute does not require the government prove that Beicker-Gallegos felt threatened.
Nor do cases interpreting Colorado or Federal law. See People In Interest of R D 464 P.3d at 733
("[A] listener's subjective reaction, without more, should not be dispositive of whether a statement is
a true threat."). As much as Defendant argues the government bore that burden, he is wrong. The
proper inquiry is whether a reasonable person would understand the communication to be a threat.
Stevens, 881 F.3d at 1253. Guesses about whether "a particular reader or listener will react with fear

CIRHOT

11

© 2021 Matthew Bender & Company. Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the
restrictions and terms and conditions of the Matthew Bender Master Agreement.

18558018
Print to PDF without this message by purchasing novaPDF (http://www.novapdf.eom/j

to particular words is far too unpredictable a metric for First Amendment protection." People In
Interest of R.D.. 464 P.3d at 733. So although "the subjective reaction of a statement’s target or
foreseeable recipients will be an important clue as to whether the message is a true threat," the
government does not have to prove beyond a reasonable doubt that the recipient felt threatened. Jd
at 733.
11
As an example, at one disciplinary hearing he said the prison's disciplinary actions would not "stop
his rifles and bullets" and only further motivated him towards violence upon his release. These
disciplinary hearings took place before the threat Beicker-Gallegos recalls receiving. But the
Colorado statute defined "in connection with" as conduct occurring "before, during, or after the
credible threat." C.R.S.A. § 18-3-602(2)(a).

C1RHOT

12

© 2021 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the
restrictions and terms and conditions of the Matthew Bender Master Agreement.

18558018
Print to PDF without this message by purchasing novaPDF (http://www.novapdf.com/)

>

/

. J I

sv
,

i

I

V

Case No. 20-1083

IN THE

phutefr Jitateg (Emtrt of appeals
FOR THE TENTH CIRCUIT

United States

of

America,
Plaintiff-Appellee,

—v.—
Andre J. Twitty,
Defendant-Appellant.

ON APPEAL FROM THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLORADO, DENVER
HONORABLE R. BROOKE JACKSON
D.C. NO. 1:19-CR-00344-RBJ‘l

BRIEF FOR DEFENDANT-APPELLANT

R. Scott Reisch
The Reisch Law Firm, LLC
1490 West 121st Avenue, Suite 202
Denver, Colorado 80234
(303) 291-0555
scott@reischlawfirm.com
Attorneys for Defendant-Appellant
i

June 29, 2020
ORAL ARGUMENT REQUESTED

m. Whether the District Court lacked jurisdiction under the ACA and
whether the application of C.R.S. § 18-3-602(l)(b) was precluded by either 26
U.S.C. § 2261A(1) or 18 U.S.C. § 115.
IV. Whether the Government presented sufficient evidence to sustain a
conviction for stalking pursuant to C.R.S. § 18-3-602(l)(b).
STATEMENT OF THE CASE
On September 19, 2019, the Defendant-Appellant Andre Twitty was arrested
on the Superseding Indictment. (Rec. Vol. I at 2, 11-15). At the time of arrest, Mr.
Twitty was completing a 60-month sentence at the United States Penitentiary,
Administrative Maximum Facility in Florence, Colorado, hereinafter (“ADX
Florence”). (Rec. Vol. II at 18-19); (TR, 11/1/19, pp 8-9). His Sentence discharged in
November of 2019 and he was detained in this case. Id; (TR, 11/1/2019, p 4).
The Superseding Indictment alleged that between January and September of
2018 at ADX Florence he:
made a credible threat to another person, namely S.B.G.,
intending S.B.G. to feel threatened, and, in connection with
the threat, repeatedly made any form of communication
with that person, a member of that person’s immediate
family, and someone with whom that person has or has had
a continuing relationship, regardless of whether a
conversation ensued.
(Rec. Vol. I at 12-13). In violation of C.R.S. § 18-3-602(l)(b) as assimilated by the
ACA. Id, The Superseding Indictment varied from the original Indictment only that

2

4
4

. \

9

it inserted, “intending S.B.G. to feel threatened.” (Rec. Vol. I at 8, 12). C.R.S. §183-602(l)(b) does not contain this added element nor do Colorado’s jury instructions.
(Rec. Vol. I at 30,32, 55, 155).
Mr. Twitty filed a Motion to Dismiss alleging that Colorado’s statute is
unconstitutional on its face and as applied.

(Rec. Vol. I at 3, 28-55).

The

Government in its Response cited United States v. Heineman, 767 F.3d 970 (2014)
and People in the Interest ofR.D., 207SC116 (Colo.

). (Rec. Vol. I at 79, 82, 85-

87). It alleged Colorado’s Attorney General conceded unconstitutionality1, and the
Government’s amendment was consistent with “presumed state law.” Id. Mr. Twitty
replied that Colorado Supreme Court has repeatedly declined to apply knowingly
element to “suffer[s] serious emotional distress or the sender intends to make a
threat” and federal courts are bound by Colorado’s current interpretation. (Rec. Vol.
I at 95-96, 99-100). He argued the Government cannot alter Colorado law under the
A.C.A. especially in light of similar federal statutes. Id.

1 At oral argument in front of the Colorado Supreme Court. The opinion in People
in Interest ofR.D., 2020 WL 2828704 (Colo. 2020) was issued on June 1, 2020. It
altered Colorado’s “reasonable person standard,” requiring amongst other things
“the subjective reaction of a statement’s target or foreseeable recipients.” Id at 14;
see (Rec. Vol. I at 281) (defense instruction that “the recipient was placed in fear”).
It declined to follow Elonis v. United States, 135 S. Ct2001 (2015) and United States
v. Heineman, 767 F.3d 970 (10th Cir. 2014). Failing to decide whether “the First
Amendment requires [subjective intent] in every threats prosecution.” Id. at 15.
Despite being notified on November 12, 2019, the Colorado Attorney General has
taken no position on the challenge to the constitutionality of C.R.S. § 18-3-602. (Rec.
Vol. I pp 4, 164-208, 223-24); See C.R.S. § 16-9-501.
3

^ 'V'u/l !

1
Appellate Case: 20-1083

Document: 010110397286

Date Filed: 08/26/2020

Page: 1

/

NO. 20-1083
In The United States Court of Appeals
For The Tenth Circuit
United States of America,
Plaintiff-Appellee,
v.
Andre J. Twitty,
Defendant-Appellant.
Answer Brief of the United States
On Appeal from the United States District Court
For the District of Colorado
The Honorable R. Brooke Jackson
D C. No. 19-CR-00344-RBJ
Jason R. Dunn
United States Attorney

Karl L. Schock
Assistant U.S. Attorney
1801 California Street
Suite 1600
Denver, CO 80202
(303) 454-0100
Attorneys for Plaintiff-Appellee
United States of America

ORAL ARGUMENT NOT REQUESTED
August 26, 2020

V-

mil

j

Appellate Case: 20-1083

Document: 010110397286

.Date Filed: 08/26/2020

Page: 35

Colorado Supreme Court would interpret C.R.S. § 18-3-602(l)(b) just as
the district court did—to include a subjective intent to threaten.5
Certainly, Twitty has not shown beyond a reasonable doubt that it
would do otherwise. Rocky Mountain Gun Owners, 467 P.3d at 323.
Two state rules of statutory construction support the district
court*s interpretation. See Phelps v. Hamilton, 59 F.3d 1058, 1070-71 &
n.23 (10th Cir. 1995) (“State rules of statutory construction should be
applied by the federal courts in interpreting a state statute.”). First,
the presumption of constitutionality discussed above. Id. The Tenth
Circuit has held that a conviction without proof of intent is
X unconstitutional. Heineman, 767 F.3d at 982. This Court should
therefore assume that the Colorado Supreme Court, if given the
opportunity, would adopt a construction that would avoid that
* constitutional infirmity. Citizens for Responsible Gov't, 236 F.3d at
5 Because this Court is not bound by Colorado’s interpretation of
the statute, Sain, 795 F.2d at 891, it should construe the statute in
accordance with Heineman and Elonis, regardless of what the Colorado
Supreme Court has done or would do. But to the extent the Court
concludes otherwise, it may wish to certify the question to the Colorado
Supreme Court. 10th Cir. R. 27.4(A); Colo. R. App. P. 21.1(a)
(authorizing certification if state law may be determinative and there is
no controlling supreme court precedent); Arizonans for Official English
v. Arizona, 520 U.S. 43, 79 (1997) (suggesting that certification may be
appropriate “when a federal court is asked to invalidate a State s law ).
24

'*T

CASE NO. 20-1083

t

IN THE UNITED STATES COURT OF
APPEALS FOR THE TENTH CIRCUIT
UNITED STATES OF AMERICA,

)
)

Plaintiff- Appellee,

)
)

v.

)
)

ANDRE TWITTY,

)
)

Defendant- Appellant

)

On Appeal from the United States District Court
For the District of Colorado
The Honorable R. Brooke Jackson
D.C.No. 19-cr-00344-RBJ

APPELLANT’S REPLY BRIEF

Respectfully submitted,
s/ R. Scott Reisch
R. Scott Reisch, #26892
Attorney for Appellant Andre Twitty
The Reisch Law Firm, LLC
1490 West 121st Avenue, Suite 202
Denver, CO 80234
Telephone: (303) 291-0555
FAX: (720) 904-5797
E-mail: scott@reischlawfirm.com
cassandra@reischlawfirm .com
Oral Argument is requested.
September 16, 2020

/

1

ARGUMENT

/

COLORADO’S STALKING STATUTE IS UNCONSTITUTIONAL AND
THE ACA DOES NOT PERMIT THE GOVERNMENT TO ALTER A STATE
STATUTE IN AN INDICTMENT, IT IS BOUND BY STATE
INTERPRETATION.
C.R.S. § 18-3-602 suffers from multiple flaws as identified in Appellant’s
Opening Brief.

1

Far from conceding “that the Colorado stalking statute is

^

$

constitutional if it is construed to require a subjective intent,” trial counsel argued

t

that the statute is Unconstitutional and “it’s not the Court’s job to fix it.” Answer
\

Brief at 19; (TR, 11/1/19, p 36); (Rec. Vol. 1 at 97). Appellant contends adding
subjective intent to C.R.S.

§ 18-3-602(2)(b) did not fix the statutJ^)lt muddled three

*

areas of law, exceeded the Court’s power, and contaminated Mr. Twitty’s trial.
There is only one*construction of C.R.S. § 18-3-602 the one supplied by
*

\

Colorado’s Supreme Court. See People v. Baer, 973 P.2d 1255, 1233 (Colo. 1999)
\

k (rejecting specific intent as to C.R.S. § 18-3-602(l)(b) in favor of “objective
\
/
x
reasonable person standard”)^ This construction is inconsistent with Tenth Circuit \\

jurisprudence but established by Colorado law. United States v. Heineman, 767 F.3d
970 (2014) (intent to instill fear is a constitutional requirement); People in Interest

l

Appellant argues that C.R.S. § 18-3-602(2)(b) is unconstitutional because it omits specific
intent but also because it includes a “reasonable listener” and excludes “subjective” reaction on
■fiie part of a “foreseeable” listener. Opening Brief at 20-21, 26-28, 30-31,44.
>)lt is the Government’s contention that it did, suggesting that the Colorado Supreme Court “is
jgoingTotake the exact same approach that the Supreme Court took in Elonisin re R.D. (TR,
lT/1/19, p20j.(ffdid noT" ‘
l

I
V

prosecution would be* unconstitutional based on the omission of the “refme[d]
objective standard ,” regardless of subjective intent. Answer Brief at 26. Heineman,
contains no such requirement.
People in Interest ofR.D., 464 P.3d 717 (Colo. 2020) did not directly address
C.R.S. § 18-3-602 but it altered Colorado’s true threats jurisprudence to include a
“refine[d] objective standard.” It is well established under Colorado case law and as
a matter of state statute that the mens rea applicable to all subsections of C.R.S. §
18-3-602 is “knowingly.” Colorado’s courts have applied this standard post-Elonis
and continue to apply it following People in the Interest ofR.D which addressed and
declined to follow Heineman. Id at 728 n. 18.
C.R.S. § 18-3-602 reads as follows:
(1) A person commits stalking if directly, or indirectly
through another person, the person knowingly:
(a) Makes a credible threat to another person and, in
connection with the threat, repeatedly follows, ...
(b) Makes a credible threat to another person and, in
connection with the threat, repeatedly makes any form of
communication with that person, a member of that
person’s immediate family, or someone with whom that
person has or has had a continuing relationship, regardless
of whether a conversation ensues; or
(c) Repeatedly follows, approaches, contacts, places under
surveillance, or makes any form of communication with
another person . . . in a manner that would cause a
reasonable person to suffer serious emotional distress and
does cause that person... serious emotional distress ...

<3

Case l:19-cr-00344-RBJ Document 4 Filed 08/22/19

USDC Colorado Page 1 of 2

/

/'/ C

)
u

IN THE UNITED STATES DISTRICT COURT
FORTHE DISTRICT OF COLORADO
Criminal Case No. 19-cr-00344-RBJ
UNITED STATES OF AMERICA
Plaintiff,
v.
1. ANDRE J.TWITTY,
Defendant.

SUPERSEDING INDICTMENT
The United States Attorney charges that:
COUNT 1
Between and including, on or about January 2018, through on or about September
2018, in the State and District of Colorado, and within the special maritime and territorial
jurisdiction of the United States, namely the United States Penitenti
Maximum Facility, in Florence, Colorado, the defendant

ary, Administrative

ANDRE J. TWITTY, knowingly

made a credible threat to another person, namely S.B.G., intending S.B.G. to feel
threatened, and, in connection with the threat,

repeatedly made any form of

communication with that person a member of that person’s immediate family, and
someone with whom that person has or has had a continuing relationship, regardless of
whether a conversation ensued.

1

Case l:19-cr-00344-RBJ Document 4

Filed 08/22/19 USDC Colorado Page 2 of 2

All in violation of Colorado Revised Statute Section 18-3-602(1)(b)

, as assimilated

by Title 18, United States Code Section 13.

A TRUE BILL:

Ink signature on file in Clerk’s Offir.fi
FOREPERSON

JASON R. DUNN
United States Attorney
s/Sarah H. .Weiss
Sarah H. Weiss
Assistant U.S. Attorney
U.S. Attorney’s Office
1801 California St., Ste. 1600
Denver, CO 80202
Telephone: 303-454-0200
Fax: 303-454-0406
E-mail: sarah.weiss@usdo| gnv
Attorney for Government

2

X‘

i

S.

!
I

(

V

l

1

IN THE UNITED STATES DISTRICT COURT

2

FOR THE DISTRICT OF COLORADO

3
Criminal Action No. 19-CR-00344-RBJ-l
4
5

UNITED STATES OF AMERICA,

6

Plaintiff,

.7

vs.

8
9

ANDRE J. TWITTY,
Defendant.

10
11
12

REPORTER’S TRANSCRIPT
Motions Hearing

13
14
15
16
17
18
19
20

Proceedings before the HONORABLE R. BROOKE JACKSON
Judge, United States District Court for the District of
Colorado, commencing on the 1st day of November, 2019, in
Courtroom A902, United States Courthouse, Denver, Colorado.
APPEARANCES
For the Plaintiff:
VALERIA N. SPENCER and SARAH H. WEISS, U.S. Attorney's Office,
1801 California St., Ste. 1600, Denver, CO 80202
For the Defendant:
R. SCOTT REISCH, Reisch Law Firm, LLC, 1490 W. 121st Ave.,
Ste. 202, Denver, CO 80234

21
22
23
24
25

Sarah K. Mitchell, RPR, CRR, 901 19th Street, Room A252,
Denver, CO 80294, 303-335-2108
Proceedings reported by mechanical stenography;
transcription produced via computer.

/

19-CR-00344-RBJ-l

Motions Hearing

11/01/2019

12

V

1

Congress, or in this particular case the State of Colorado,

2

should go back and fix it.

3

job to add language to statutes that are defective.

But I don't think it's the Court's

4

THE COURT:

But that's what the Supreme Court did.

5

-MR. REISCH:

I understand that's what the Supreme

6

Court did, but I still don't think that they should do that.

7

I think that the statute reads for itself.

8

whether it's Congress or the state legislature, drafted the

9

statute.

If it fails, it fails.

The legislature,

They don't get to just go

10

back and fix it and add it, and say, Well, this is what the

11

legislature really meant, or this is the way —

12

THE COURT:

Right.

Give me some law that says that

13

the Court cannot interpret a statute so as to be

14

constitutional.

15

MR. REISCH:

Well, I think interpret is different

16

than adding language.

17

legislator at that moment, and for lack of a better term,

18

fixing the flaws in the statute.

19

law would ever be found unconstitutional,

20

simply rewrite it to be constitutional, Your Honor, and I

21

think that just like in this particular case, and even Elonis

22

I think that's the Court acting as a

If that were the case, no
The Court would

I understand what Elonis — the Court did in Elonis.

They

23

added — they said it should be there, but they sent it back,

24

and I think it was wrongly decided in that regard,

25

should have simply said our job is not to rewrite it.
Sarah K. Mitchell, RPR, CRR

They
Our job

19-CR-00344-RBJ-1
1
2

Motions Hearing

11/01/2019

chosen not to.,
THE COURT:

Well, let me ask you this question then.

3

Is it your position that a mental state, a mens rea of intent

4

to cause harm is not inherent in that state statute?

5

MR. REISCH:

6

THE COURT:

Not as it is written right now.
I'm surprised, because I would think that

7

every defendant in any case would insist on that just as the

8

Supreme Court insisted on it to the benefit of the defendant.

9

MR. REISCH:

I agree, Your Honor.

.1 agree.

Every

10

criminal statute should have that.

11

should say you have to prove what the defendant is saying. *

12

But in this particular case, we're challenging the statute on

13

the plain language that exists there, and no Colorado Courts

14

have said go ahead and add that mental state.

15

has not gone back and fixed it since Elonis.

16

failure to do so, they've said we see it as fine.

17

15

THE COURT:

Every criminal statute

The legislature
And by their

Well, perhaps if you had done what you

18

were required to do and notified the attorney general, this

19

would have been one of those rare instances where the attorney

20

general actually showed up and took a position on this, and

21

then we would know, at least from that perspective.

22

MR. REISCH:

Your Honor, I would ask then for leave.

23

I would move to continue.

I would ask to set this on the

24

Court's calendar, and I will notify the attorney general

25

pursuant to any requirements that I need to do so.
0

Sarah K. Mitchell, RPR, CRR

,/>g. iJs
j

19-CR-00344-RBJ-1

r

Motions Hearing

11/01/2019

18

1

Government is asking for you to do here is precisely what was

2

done in the last trial of Mr. Twitty under the federal threats

CD

0
0
6
7

statute.

It is precisely what the Supreme Court did in

Elonis, and it is precisely what all indications available are
that the Colorado Supreme Court is going to do within the next
few weeks or months in that In re R.D. case.
THE COURT:

Well, I don't know what they're going to

8

do, but did you read the statute that the Supreme Court

9 .

construed in Elonis?

10

MS. WEISS:

I did, Your Honor.

(ii)

THE COURT:

It’s a little more vague than this

fl2)

Colorado statute, isn't it?

• 13)

specifically states precisely what Elonis said was not

r

h

This Colorado statute very

14 *

possible, not constitutional.

15

constitutional.

16

in the Tenth Circuit case.

17

767 F.3d at 978?

18

defendant can be constitutionally convicted of making a true

19

threat only if the defendant intended the recipient of the

20

threat to feel threatened, closed quote.

21}

that this statute on its face, if you don't read the mens rea

1 22 ;

Well, they didn't say not

Harris Hartz said it was not constitutional
What was his language in Heineman,

Quote, We read Black as establishing that a

But my point was

into it, would have to be unconstitutional,

It is more

23

clearly so,, in my opinion, than the statute that was construed

24

in Elonis.

25

Do you disagree?

MS. WEISS:

I disagree somewhat, and part of this has

Sarah K. Mitchell, RPR, CRR

1

f9
l

11/01/2019

Motions Hearing

19-CR-0034 4-RBJ-l-

X

. Jo-fs

1

Government is narrowing the universe of potential criminal

2

conduct by adding this additional element in, which is
constitutionally required under Heineman.

/

20

In re R.D.

I-"Vv

! 4}

II

^5

Xi

certainly suggests that the Colorado Supreme Court is going to
take the exact same approach that the Supreme Court took in

[ 6J II Elonis and say, as a matter of statutory interpretation, we
/
' l) II are going to interpret subjective intent into our state threat
:
; 8' |j statutes going forward.
9
10
•11

THE COURT:

What is the current status of that case

that you've referred to in the Colorado Supreme Court?
They had oral argument in May of this

MS. WEISS:

I checked the docket

12

year, the middle of May of this year.

13

yesterday, and they have not yet issued an opinion.

However

14
•'-s

v 15-

THE COURT:

Well, Mr. Reisch asked for leave to

continue this case and notify the attorney general, which he
‘1718-

i

should have done in the first place.

You've got this case

that you're relying on to support you, but hasn't been decided

v 19

yet.. Maybe the better course of discretion would be to put .

• 20:

this case on ice for a little while and see what happens in

121

that other case.

?

; 22
\ 23/

What do you think?

MS. WEISS:

Your Honor, in this instance, 1 don't

think that's necessary, and why I don't think that's necessary

24

is I have listened to the entire oral argument that happened

25

in that In re R.D. case, and it is very clear from instance
Sarah K. Mitchell, RPR, CRR

20

V

People In Interest of?«.D. j Cases | Westlaw

<

Wf ST LAW
f

/

2020 WL 2828704
NOTICE: THIS OPINION HAS NOT BEEN RELEASED FOR PUBLICATION IN THE
T
PERMANENT LAW REPORTS. UNTIL RELEASED. IT IS SUBJECT TO REVISION OR
; eople li Interest of R.D.
i ^preme Court of Colorado.

Jur>e 1,2020

— P.3d —

2020 WL 2828704

2020 CO 44

uu^icmc vuuu ui v/uiui auu.

(Approx. 23 pages)

The PEOPLE of the State of Colorado, Petitioner,
IN the INTEREST OF Respondent: R.D.
Supreme Court Case No. 17SC116
June 1, 2020

Synopsis
Background: Following bench trial, juvenile was adjudicated delinquent in the District
Court, Arapahoe County, Theresa Slade, J., based on messages posted on microblog that
threatened high school student that would have constituted harassment if committed by an
adult. Juvenile appealed. The Court of Appeals, Hawthorne, J..2016WL 74738072016,
reversed and remanded. The People filed petition for writ of certiorari.
Holdings: The Supreme Court, Marquez, J., en banc, held that:
(j^true threat," which is not protected by First Amendment, is statement that intended or
foreseeable recipient would reasonably perceive as serious expression of intent to commit
act of unlawful violence;
(j^appellate court had to review constitutionality of harassment statute's application to
juvenile’s “tweets;"
-‘■f'^jjas matter of first impressio rfyobjective tests are insufficient to distinguish what is a true
threat from what is constitutionally protected speech;
4 reaction of high school students to juvenile’s “tweets" was relevant factor for appellate
x courtiQ.consider when determining if juvenile’s statements were.iojeJhraats; and
i 5 government had to prove that juvenile had thesubiective intenTtothreaten^i order to find
juvenile guilty of harassment.
*
V

i p. Reversed and remanded with instructions.
West Headnotes (39)
Change View
1

Constitutional Law
First Amendment's protection of speech is robust, but not absolute: it does not,
for example, safeguard the utterance of a true threat, U.S. Const. Amend. 1.

i

2

Constitutional Law
“True threat," which is not protected by First Amendment, is a statement that,
considered in context and under totality of the circumstances, an intended or
foreseeable recipient would reasonably perceive as serious expression of intent
to commit act of unlawful violence. U.S. Const. Amend. 1.

i
r.

3

Constitutional Law “fe55*
In determining whether statement is a true threat, which is not protected by First
Amendment, reviewing court must examine the words used, but it must also
consider context in which the statement was made. U.S. Const. Amend. 1.
j

https://1.next.wostlaw.com/Document/ld5ba9be0a43511eabb6d82c9ad95Dd07/View/FuliText.html?listSource=Search&rank=0&originationContext=M...

1/18

People In Interest of R.D. | Cases | Westlaw

6/9/2020

gun emoji in the article's title "looks like a space pistol on some platforms and like a
revolver on others").
1J49 The chance of meaning being lost in translation is heightened by the potential for
online speech to be read far outside its original context. These days, one needs no more
than a whim and a smartphone to broadcast to a massive audience. A message posted in
Denver can reach New York, Tokyo, or Munich in an instant. Indeed, the term "viral" is apt
for the rapidity with which an online statement can spread. A recipient might retransmit a
message to audiences not foreseeable to the original speaker. A message might be
recirculated after an intervening event that alters its impact. And online speech transmitted
in the heat of the moment—which, if uttered verbally, would not linger beyond the speaker’s
apology—might be archived and subjected to scrutiny years after the fact.

4

~

•- -'-••••

"

*\4J£0 The risk of mistaking protected speech for a true threat is high; But so are the stakes of
leavinglrue ffireatSufireguiatea. with the click ot a button or tap of a screen, a threat made
online can inflict fear on a wide audience. See, e.g., Julie Turkewitz & Jack Healy,
‘Infatuated' with Columbine: Threats and Fear, 20 Years After a Massacre. N.Y. Times (Apr.
17, 2tfl9j, Kttps://wwwjnyt[mes.com/2019/04/17/us/columbine-shooting-sol-pais.html
(reporting that “millions of parents, students, and educators across Colorado" awoke on
Columbine’s 20tli anniversary to' news of an Individual's ^ alarming sociai 'media posts and
threats to friends and family, and that hundreds of schools across the state closed In
response). Indeed, a single online post can trigger the diversion of significant law
enforcement resources. See, e.&^United States v. Bradbury, 848 F.3d 799, 802 (7th Cir.
2017) (observing that defendant’s Facebook postprecipflafed an extensive police
investigation). Or such a threat may be directed to a known and vulnerable victim in the
privacy of their home. See Elonis, 135 S. Ct. at 2017 (Alito, J., concurring in part and
dissenting in part) ("Threats of violence and intimidation are among the most favored
weapons of domestic abusers, and the rise of social media has only made those tactics
more commonplace."). Online communication—in particular, the ability to communicate
anonymously—enables unusually disinhibited communication, magnifying the danger and
potentially destructive impact of threatening language on victims, fi^e Reno v. ACLU, 52J_
U.S.844, 889, 117 S.Ct. 2329, 138 L.Ed.2d 874 (1997) (O'Connor, J., concurring)
("[Cjyberspace allows Speakers arid listeners foThasTTtheir identities"). In short,
technological innovation has provided apparent license and a ready platform to those
^wishing to provoke terror.
I
Ov "4
K *f 2 H51 Given this changed landscape we arexoaviocedltli^hg.vaaQJj.g^b]ective3
[tesf^previouslv articulatedby this court and the court of appeals affiTinsufficieniyo
^distinguisFiYwhat is a [true] threat... from what is constitutionally protected speech.” Waffs,
^394 U.S. at 707, 89 S.Ct^99. Judging a statement from th
e point of a
^“reasonable speaker^! o^laasona^elistener^ injaur viev^inadequatgi
unts for
^poteTItMyj^^amerencesliir^speaKereiTistenereyarid'disij
eairact-findersFrames of
^efeYerii^^/^SgEefor^holgrqj^^^retnreaftls j^tatej^er;
context
^Bnd under the totality of thg circumsten^s^Sgintende^dlforeseeableJregipien^yguld
rrerisonablTDerceivb'fas^seriousexpression mintentlo^mmS^^^^^nla^i^
yjoleno^jffiWe believe t^Uh^^^nem^ri^ft^^jectivestanda^strikesabetter

\

,\ .
•’*

i

;

> ' !

H

e n.

.

balance between giving breathing room to free expression and protecting against the harms
.that true threats inflict.

1.

1(52 In determining whether a statement is a true threat, a reviewing court must examine
the words used, but it must also consider the context in which the statement was made.
Particularly where the alleged threat is communlcated dnlin&.'tlTe'tontdXttiarfactors courts
should consider include, but are not limited to (1) the statement's role in a broader
exchange, if any, including surrounding events; (2) the medium or platform through which
the statement was communicated, including any distinctive conventions or architectural
features; (3) the manner in which the statement was conveyed (e.g., anonymously or not,
privately or publicly); (4) the relationship between the speaker and recipient(s); and (5) the
subjective reaction of the statement's intended or foreseeable recipients).

16
17 H53 Courts should start, of course, with the words themselves, along with any
accompanying symbols, images, and other similar cues to the words’ meaning. Ct United
\ States v. Edwards, No. 2:17-CR-170, 2018 WL 456320, at ’2 (S.D. Ohio Jan. 17, 2018) (in
witness retaliation case, analyzing Facebook post that called confidential informant a snitch
and included laughing faces and a skull emoji). This inquiry should include whether foe
( threat contains accurate details tending to heighten its credibility. See, e.g., Etonig 135 S.
Ct. at 2005^06 (noTirigthe”accuracy of the details in defendant's Facebook post conveying
a threat against his wife, including a diagram of her house and directions to Tire a mortar

https7/1.next.westJaw.com/Document/ld5ba9be0a43511eabb6d82c9ad959d07/View/FullText.html?listSource=Search&rank=0&originationContext=...

13/18

6/9/2020

People In Interest of R.D. | Cases | Westlaw
court heard argument from counsel but took no evidence on that question. Moreover, the
trial transcript reveals that the court did not reconsider R.D.'s constitutional argument at the
close of the prosecution’s case or in the final ruling adjudicating R.D. delinquent. And in
judging R.D.’s tweets against the elements of section 18-9-111(1)(e), the trial court actively
disregarded testimony suggesting that A.C. and J.W. did not take R.D.’s messages
seriously, considering their reaction irrelevant under the statute. As stated above, their
reaction was a relevant factor to consider under the First Amendment.

y

*151J65 Because we have clarified th»3 testto be used when evaluating whether a £ \
• statement constitutes a true threat, thelrial court is in the best position to review'the record,
. to take further evidence in its discretion, and to reach a conclusion on the matter.

A'.

1s*"” --WvSk.
—---------- -----IV. Conclusion
—
.V
*v‘* '
......... 1
* 1|66'We hold thsrta true threat is a statemenhthat, considered in context and under t
$
an
or Tor«
a&JEiispierrftwpu&ieaspnablv Vv t ,
j>/perceive_as a serious expression of intenffo commit an act of unlawful violence. In V* ^ '
^oereWnlng whether a shitementls a true threat, areviewing court mustexaminei words
used, but it must also consider the context in which the statement was made. Particularly
where the alleged threat is communicated online, the contextual factors courts should
consider include, but are not limited to (1) the statement's role in a broader exchange, if
any, including surrounding events; (2) the medium or platform through which the statement
was communicated, including any distinctive conventions or architectural features; (3) the
manner in which the statement was conveyed (e.g., anonymously or not, privately or
publicly); (4) me relationship between me speaker and recipient(s); and (5) the subjective
reaction of the statement's intended or foreseeable recipient/sl
/jTpjgl 1167 We agree with me parties thgtin this case, me government
lOrffhadthe subjective jnten^to threat^W^ nee dnotdecideJ^^iw
%-J^injpent requires that showing in every threats prosecution^

;
i

ir:>
:

Ali Citations

\

*1
!

,-JI6& Because neither the juvenile court nor the court of appeals had the benefit of the
(NJtamework we adopt today, we reverse the judgment of the court of appeals and remand
with.instructions to return the case to the juvenile court to reconsider me adjudication
(^applying this refined test.
.?

CI
At
/
v

— P.3d —, 2020 WL 2828704, 2020 CO 44

•'I

•%

\

i

Footnotes

\

*.
\
i
/
/

i* ;v

v
'W-',/

e_need notjresqjve today^whether the test fo^true mreats under the First^
/^^mSment als^requiresjcbnstderation of thQpeakeris^u^^we intenttto
^Ihreaten^einctlmfsjrSuf even assuming I! d^iTtTi'e statutory'provision af
issue required the State to prove beyond a reasonable doubt that the
communication here was made "in a manner intended to ... threaten bodily
,Jnju_ry."§18-9-111(1Je).

2

Twitter is a “real-time information network that lets people share and discuss
what is happening at a particular moment in time through the use of 'tweets.'”
Dimas-Martinez v. State, 2011 Ark. 515, 385 S.W.3d 238, 243 n.3 (2011).

3

A tweet is a message posted to Twitter that might contain text or other media.
A tweet appears on the sender’s profile page and may appear on the feed, or
timeline, of anyone following the sender. About Different Types of Tweets,
Twitter, https://help.twitter.com/en/using-twitter/types-of-tweets
[https://perma.ee/8ZBR-H79E]. The word “tweet" is also used as a verb to'
describe the act of posting a message on Twitter. See, e.g., How to Tweet,
Twitter, https://help.twitter.com/en/using-twitter/how-to-tweet
[https://perma.cc/9CQ6-3BYE].

4

A “mention" is a tweet mat contains another account’s Twitter username, or
"handle," preceded by me “@" symbol. When a user’s handle is mentioned,
the user receives notification of the tweet, but the tweet does not appear on
the user’s public profile.

5

For purposes of mis opinion, we have replaced the students’ Twitter handles
with their initials.

https ://1.next.westlaw.com/Document/ld5ba9be0a43511eabb6d82c9ad959d07/View/FuHText.html?listSource=Search&rank=0&originationContext=...

16/18

People In Interest of R.D. | Cases | Westlaw

6/9/2020

review. In other words, we assume for purposes of this opinion that section
18-9-111(1 )(e) proscribes only conduct that constitutes a true threat, at least
insofar as it criminalizes what R.D. is charged with here. Accordingly, we limit
our analysis to whether R.D.'s tweets constituted true threats.
/The objective tes^has several variations, with some courts asking whether
the statement is one g(reasonable speaker would foresee would be
interpreted as a serious expression of intention to inflict bodily harm, see,
£g„ State iT7rey“U,T86 Wash.2d 884, 383 P.3d 474,478 (2016)xsome^ •
asking how ^reas^nab]e7/ste7?e7^oul(^onstfuCthe speech in context, see,
e.&gUnited States v. White, 670 F.3d 498, 507 (4th Cir. 2012), and some
considering both perspectives, see, e.g., Haughwout v. Tordenti, 332 Conn.
559, 211 A,3d 1, 9 (2019) (requiring that “a reasonable person would foresee
\
that the statement would be interpreted by those to whom the maker
communicates the statement as a serious expression of intent to harm or
assault” and that “a reasonable listener, familiar with the entire factual context
of the defendant's statements, would be highly likely to interpret them as
communicating a genuine threat of violence rather than protected expression,
however offensive or repugnant’ (quoting State v. Krijger, 313 Conn. 434, 97
A.3d 946,957,963 (2014))).
—-.►—'-a

T

1

.-

------------

/

See, e.q.dJnited^Statesv^einemahTT^ F.3d 970, 978 (10th Cir. 2014); \J
CUnited States v. CasselM08 F.3d'622, 631-33 (9th Cir. 20051: State v
450 P.3d 805, 813-15 (2019); see also Perez vrj\
i [Boettger, — KarT
Florida,—U.S.------ , 137 S. Ct. 853, 855, 197 L.Ed.2d480 (2i
h (Sotomayor, J., concurring in denial of petition for writ of certiorari) ("Together,
l
^garitMig^ustain aJhr^t convjctjon without
'
/
encroaching upon the First Amendment, States must prove more thy the
(rner?utteranc5'of threatening words^some level oKjntent is required....
These two cases strongly suggest that it ifoofonouah that greaspnabte
5j
^reo^rnightTTave^uric^tfnnri th<4 words as a- threaf^ajury must find that
‘C Jhespeakerjctual^inte^e^bco'nveV^threat.")^^

/

\1

/'
V. 19 ;

20)

Some have also reasoned that it would be unfair to penalize a speaker for the
unintended consequences of their communication. See Leslie Kendrick, Free
Speech and Guilty Minds, 114 Colum. L. Rev. 1255, 1282 (2014).
Specifically, the jury was instructed that
[a] statement is a true threat when a defendant intentionally makes a
statement in a context or under such circumstances wherein a reasonable
person would foresee that the statement would be interpreted by those to
whom the maker communicates the statement as a serious expression of
an intention to inflict bodily injury or take the life of an individual.
Elonis, 135 S. Ct. at 2007.

21

In the absence of additional guidance from the U.S. Supreme Court, we
decline today to say that a speaker's subjective intent to threaten is
necessary for a statement to constitute a true threat for First Amendment
purposes. But even assuming that the First Amendment requires proof of
such subjective intent, the statute here required the government to show
beyond a reasonable doubt that R.D. "initiate^] communication ... In a
manner intended to ... threaten bodily injury.” § 18-9-111 (1)(e).

End of
Document

Westlaw. © 2020 Thomson Reuters

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

Privacy Statement

Accessibility

Supplier Terms

Contact Us

1-800-REF-ATTY{1-800-733-2889)

Improve Westlaw ^ !4‘i

THOMSON HI JTfRS

httpsV/1 .next.westlaw.com/Document/ld5ba9be0a43511 eabb6d82c9ad959d07/View/FullText.html?listSource=Search&rank=0&originationContext=...

18/18

•

V
i

j

r

i

f

y

)
i

<

IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLORADO
X

Criminal Action No. 19-cr-00344-RBJ
UNITED STATES OF AMERICA,
Plaintiff,
vs.
1.

/

ANDRE J. TWITTY,
Defendant.

MOTION TO DISMISS INDICTMENT

COMES NOW, the Defendant, Andre Twitty, by and through his CJA appointed
counsel, R. Scott Reisch, and hereby moves this Honorable Court for the entry of an
Order vacating the judgment and dismissing the Indie Iment.
AS GROUNDS for this Motion, Mr. Twitty states as follows:
1.

On 21 Nov 2019, after a Jury Trial, Petitioner was found guilty on the sole

count of the indictment, Stalking - Credible Threat, in violation of C.R.S. § 18-3-602(1 )(b)
and assimilated under 18 USC § 13, The Assimilative Crimes Act, hereinafter (“ACA”).
However, the ACA did not apply to the conduct alleged in the indictment. This
jurisdictional defect mandates dismissal of the indictment.
2.

The ACA provides limited jurisdiction for federal courts to adopt state

substantive offenses, to federal enclaves when federal law is silent. Lewis v. United
States, 523 U.S. 155, 163 (1998). Federal law is not silent in Mr. Twitty’s case.
3.

18 U.S.C. § 115(a)(1)(B) is entitled "Inf uencing, impeding, or retaliating

j

f
against a Federal official by threatening or injuring a family member." It covers threats
against federal officials and employees. It supplants C.R.S. § 18-3-602(1 )(b). 18 U.S.C.
§115(a)(1)(B) reads in the relevant part:
Whoever threatens to assault, kidnap, or murder, United
States official, a United States judge, a Federal law
enforcement officer, or an official whose killing would be a
crime under section [1114].
See U.S. v. Rael, 2019 U.S. Dist. LEXIS 96012 (D. N.M. June 7).
4.

“18 U.S.C. § 1114, makes it a [federal offense] to kill or attempt to kill any

officer or [employee] of the United States or of any agency in any branch of the United
States Government while such officer or employee is engaged in or on account of the
performance of official duties." See U.S. v. Chavez, 2018 U.S. Dist. LEXIS 212461 (D.
N.M. December 18).
5.

The person named in the indictment as the victim, S.B.G., the disciplinary

hearing officer, was clearly "an officer and [employee] of the Federal Bureau of Prisons,
an agency of a branch of the United States government, as designated in [Section 1114.]”
See U.S. v. Murray, 760 F. Appx. 595, 596 (10th Cir. 2019) (Threatened to kill an
employee of the BOP); U.S. v. Howe, 289 F. Appx. 74-5 (6th Cir. 2008) (defendant
charged with threatening a correctional officer in violation of 18 U.S.C. § 115(a)(1)(B)
while incarcerated at a United States Penitentiary). The Government was barred from
Charing Mr. Twitty with making a credible threat under C.R.S.§ 18-3-602(1 )(b) when the
same conduct has already been made criminal under a federal statute.
6.

In Torres v. Lynch, 136 S.Ct. 1619,1631 (2016), the United States Supreme

Court made clear:

The [ACA] subjects federal enclaves ... to state criminal laws
except when they punish the same conduct as a federal
™ ACA thus requires courts to decide when a
one willappfy8 8 aW ^ sufficient|y aiike that on|y the federal

1

Here, both statutes punish the same conduct, credible threats.
7.

In Lewis, the United States Supreme Court made clear that there is “no

assimilation where Congress has covered the field with uniform federal legislation.” Lewis
v. United States, 523 U.S. 155, 165 (1998). “The Act will not apply where both where
both state and federal statutes

seek to punish approximately the same wrongful

behavior.” Id. “[T]he Government can
assimilate state law under the ACA only if no act
of Congress make such conduct punishable.”
Indians v. Oklahoma, 927 F.2d 1170

United Keetoowah Band of Cherokee

1176, 1180 (10th Cir. 1991); accord U.S.

v.

Ganadonegro, 854 F. Supp. 2d. 1068, 1074-75 (D. N.M. 2012). “The plain meaning of
that Act requires that state law not be assimilated where any enactment of Congress
punished the conduct " Id.
8.

In U.S. v. Patmore, 475 F.2d 752-53 (10th Cir. 1973), the Tenth Circuit held

that 18 U.S.C. § 113(a) preempted a Kansas assault statute under the ACA where the
defendant was imprisoned in a federal penitentiary. Id at 753. It held, the “Act has no
application if such acts or omissions

are made penal by federal statute .. . [although the

crime may be within the definition of the Kansas

statute, it is punishable under the

provisions of 18 U.S.C. § 113(c), which prevail.” Id quoting United States
v. Sharpnack;
355 U.S. 286, 292 (1958).

9.

“[T]he ACA is not intended to make federal enclaves subject to th

of the criminal law of the state in which the enclave is located.”

e entirety

U.S. v. Moreno, 2005 WL

1899393 (E.D. Wl, Aug 9). “It thus makes applicable only those state criminal laws that
make punishable acts or omissions that have not been made punishable by
any
Congress. Id “The ACA may not be used to transform

a state criminal charge into a

federal offense where the same conduct is already subject to prosecution under federal
law. Id citing United States v. Chausse, 536 F.2d 637, 644-45 (7th Cir. 1976).
10.

In U.S. v. Christie, 717 F.3d 1156, 1170-71 (10th Cir. 2013), “the district

court had to dismiss the assimilated charges as a matter of law after trial.” Id. at 1170.
Where, as here:
a federal statute applies to the defendant's conduct and that
the assimilation of a state law applying to the same conduct
would interfere with the achievement of a federal policy or
effectively rewrite an offense definition that Congress carefully
considered or enter a field Congress has expressed an intent
to occupy, then the need for dismissing an assimilated crime
may be evidence even before trial.
Id at 171 citing Lewis, 523 U.S. at 164. 18 U.S.C. § 115(a)(1)(B) punishes the
same
conduct asC.R.S. § 18-3-602(1 )(b) as a part of a comprehensive regulatory scheme. As
such, only the federal act will apply. Torres, 136 S.Ct. at 1631; Patmore, 475 F.2d at 753
(“the act has no application”). Therefore, the ACA did not confer jurisdiction on the trial
court.
11.

The Tenth Circuit held in Gad v. Kansas State University, 787 F.3d 1032
1035 (10th Cir. 2015):
The
. . federal courts are courts of limited subject matter
jurisdiction. And since we have limited jurisdiction, we
may only hear cases when empowered to do so by the
Constitution and by act of Congress.

Id (internal citations omitted). Since th<§‘ACA does not apply by its

own language, it did

M,, not confer any jurisdiction on the trial court as a matter of law. See Pelkey v.

Colorado

Dept, of Labor, 14CV-02205-RBJ (D. Colo. April 14, 2005) (“statutes conferring
jurisdiction on federal courts are to be strictly construed, and doubts resolved against
federal jurisdiction”); See Bakerv. Meek, 2015 WL 10012984 (D. Colo., Dec 31) (“A court
lacking jurisdiction cannot render judgment but must dismiss the cause at any state of the
proceeding in which it becomes apparent that jurisdiction is lacking.)
12.

It is beyond dispute that the trial court did not have proper subject matter

jurisdiction because it obtained its jurisdiction from the ACA, 18 U.S.C. § 13(a). The ACA
does not apply to Mr. Twitty and his alleged conduct. As such, the trial court judgment is
void. U.S. v. Prentiss, 256 F.3d 971, 986 n. 14 (10th Cir. 2001) (“Federal crimes are
solely creatures of statutes”); Gadv. Kansas State University, 787 F.3d 1032, 1035 (10th
Cir. 2015) (federal courts jurisdiction limited to constitution and statutes).
13.

The U.S. Supreme Court made clear in Insur. Corp. v. Compagne des

Bauxites 456 U.S. 694, 701-702 (1982), “[t]he valitidy of an order of a federal court
depends upon that court’s having jurisdiction over both the subject matter and the
parties.” Without jurisdiction the court is without power, and its orders are invalid. Hovens
v. Cob. Dept Corn, 897 F.3d 1250, 1261 (10th Cir. 2018) (“A court without jurisdiction
has no authority to decide an issue on the merits").
14.

“When a court assumes a jurisdiction which in fact it could not take ... all

proceedings in that court must go for naught. U.S. v. Magnan, 622 Fed. Appx. 719, 722
(10th Cir. 2015). This includes any judgments of conviction rendered by the court in
absence of jurisdiction. Johnson v. Zebst, 304 U.S. 458, 468 (1938).
»

15.

“[N]o citizen shall be imprisoned or otherwise detained by the United

States except pursuant to an [ACT] of Congress.” Rumfeld v. Padilia, 542 U.S. 426, 434

(

[

n. 6 (2006) Thus “where imprisonment is unlawful, the Court can only direct the prisoner
to be discharged" Boumediene v. Bush, 553 U.S. 723, 779 (2008) Petitioner is entitled
to his immediate release.
WHEREFORE Mr. Twitty moves that the relief requested be granted and for any
further relief which this Honorable Court deems just and proper.
Dated this 5th day of February 2020.

Respectfully submitted

s/ R. Scott Reisch
R. Scott Reisch, #26892
The Reisch Law Firm, LLC
1490 West 121st Ave., Suite 202
Denver, CO 80234
Telephone: (303)291-0555
FAX: (720) 904-5797
E-mail: scott@reischlawfirm.com
cassandra@reischlawfirm.com
Attorney for Defendant Andre J. Twitty

r-

